<html>
<title> - FITARA 12.0</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
                              FITARA 12.0

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                               OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2021

                               __________

                           Serial No. 117-38

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
      


                       Available at: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                             ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
45-424 PDF           WASHINGTON : 2021 
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                     Russell Anello, Staff Director
  Wendy Ginsberg, Subcommittee on Government Operations Staff Director
                    Amy Stratton, Deputy Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Jody B. Hice, Georgia Ranking 
    Columbia                             Minority Member
Danny K. Davis, Illinois             Fred Keller, Pennsylvania
John P. Sarbanes, Maryland           Andrew Clyde, Georgia
Brenda L. Lawrence, Michigan         Andy Biggs, Arizona
Stephen F. Lynch, Massachsetts       Nancy Mace, South Carolina
Jamie Raskin, Maryland               Jake LaTurner, Kansas
Ro Khanna, California                Yvette Herrell, New Mexico
Katie Porter, California

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 28, 2021....................................     1

                               Witnesses

Ms. Clare Martorana, Federal Chief Information Officer, Office of 
  Management and Budget
Oral Statement...................................................     7
Mr. Keith A. Bluestein, Chief Information Officer, Small Business 
  Administration
Oral Statement...................................................     9
Mr. Sean Brune, Chief Information Officer, Social Security 
  Administration
Oral Statement...................................................    11
Ms. Carol C. Harris, Director, Information Technology and 
  Cybersecurity, Government Accountability Office
Oral Statement...................................................    12

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              


  * Questions for the Record: to Mr. Keith A. Bluestein; 
  submitted by Chairman Connolly.

  * Questions for the Record: to Mr. Sean Brune; submitted by 
  Chairman Connolly.

  * Questions for the Record: to Ms. Clare Martorana; submitted 
  by Chairman Connolly.

The documents are available at: docs.house.gov.


                              FITARA 12.0

                              ----------                              


                        Wednesday, July 28, 2021

                   House of Representatives
                  Committee on Oversight and Reform
                      Subcommittee on Government Operations
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:13 p.m., 
2154 Rayburn House Office Building, Hon. Gerald Connolly 
(chairman of the subcommittee) presiding.
    Present: Representatives Connolly, Norton, Davis, Lynch, 
Khanna, Porter, Comer, Hice, Keller, Biggs, and LaTurner.
    Also present: Representative Issa.
    Mr. Connolly. Welcome, everybody, to today's hybrid 
hearing. Pursuant to House rules, some members will appear in 
person. Others will appear remotely on Zoom.
    Since some members or witnesses are appearing in person, 
let me first remind everyone that pursuant to the latest 
guidance from the House attending physician, all individuals 
attending this hearing in person are expected to wear a face 
mask in the hearing room, regardless of their vaccination 
status.
    Members or witnesses may remove their masks when recognized 
by the chair to speak, and then kindly put the mask back on 
afterwards. Members who are not wearing a face mask risk not 
being recognized.
    In addition, because we have a mix of vaccinated and 
unvaccinated people in the hearing room, we must maintain 
distancing to protect those who are not vaccinated.
    Let me also state a few reminders for those members who are 
appearing in person. You will only see members and witnesses 
appearing remotely in the monitor in front of you when they are 
speaking in what is known as speaker view.
    A timer is visible in the room directly in front of you. 
For members appearing remotely, I know you are all familiar 
with Zoom by now, but let me remind everyone of a few points.
    First, you will be able to see each person speaking during 
the hearing, whether they are in person or remote. If you have 
Zoom set to speaker view or if you have questions about this, 
please contact committee staff immediately.
    Second, we have a timer that should be visible on your 
screen when you are in the speaker view. Members who wish to 
pin the timer to their screen should contact committee staff 
for assistance.
    Third, the House rules require we see you. So, please have 
your cameras turned on.
    Fourth, members who are appearing remotely who are not 
recognized should remain muted so that we can minimize 
background noise and feedback and hear the person recognized to 
speak.
    And fifth, I will recognize members verbally but members 
retain the right to seek recognition verbally. In regular 
order, members will be recognized in seniority for questions.
    Last, if you want to be recognized outside of regular 
order, you may identify that in one of several ways. You can 
use the chat function to send a request, you may send an email 
to the majority staff, or you may unmute your mic to seek 
recognition.
    Obviously, we don't want people talking over each other. 
So, my preference would be that members use the chat function 
or email our staff to facilitate formal recognition, and we 
will do the best we can to get back to you expeditiously.
    We will begin the hearing in just a moment, and meanwhile, 
the chair would ask unanimous consent to recognize our 
colleague, the former chairman of the full committee, Darrell 
Issa, to be able to participate fully in this hearing.
    Without objection, it is so ordered.
    Committee will come to order. Without objection, the chair 
is authorized to declare a recess of the committee at any time. 
I now recognize myself for an opening statement.
    For the past six years, this subcommittee has maintained a 
steady and bipartisan oversight of agency implementation of the 
Federal Information Technology Acquisition Reform Act in 
addition to other critical IT laws incorporated into the 
biannual FITARA scorecard.
    The scorecard holds agencies accountable for improving 
their IT postures. In practice, the scorecard is a tool for 
Congress and the public to ensure better cybersecurity, reduce 
wasteful spending, and make government service to the Nation 
more effective.
    Throughout this pandemic, we have come to realize how vital 
agile IT and strong IT governance are to the success of the 
Federal Government in meeting the needs of the people we all 
serve.
    Today's hearing will discuss the results of the twelfth 
iteration of the FITARA scorecard. This hearing will also focus 
on how Congress and the administration can work together to 
improve services to this Nation.
    We will examine how we can effectively modernize IT across 
the Federal Government, including making changes to 
administration guidance and adding new oversight metrics to the 
scorecard itself in order to hold agencies accountable for 
transforming how government does business.
    Today, we will also hear for the first time from the new 
Federal CIO, Clare Martorana, about the administration's 
Federal IT priorities, including how it plans to administer the 
recent $1 billion technology modernization fund approved by 
Congress.
    And, additionally, we will hear how she plans to prioritize 
projects to retire legacy Federal IT systems to accelerate 
agencies' transition to emerging technologies, improve Federal 
cybersecurity, and to implement actions from lessons learned 
from the pandemic.
    The fact that Ms. Martorana is--am I pronouncing that 
right, Martorana--is here today is a clear indication of the 
Biden administration's commitment and recognition of the 
significance of FITARA and Federal IT investments themselves.
    Since the December 2020 scorecard four agencies' FITARA 
scorecard grades increased, two decreased, and 18 remained 
unchanged. Nearly all agencies received a passing grade.
    Unfortunately for some agencies and in some categories, 
progress has slowed. I hope to hear from our witnesses and OMB 
about transcending the hurdles to improved IT and to ensure 
efficient IT acquisition and management practices.
    We must continue to strive for the dividends reaped from 
modernizing legacy IT systems, migrating to the cloud, and 
maintaining a strong and robust and protective cyber posture.
    Despite some backsliding, the scorecard demonstrates 
continued improvements in many categories. Since the 
scorecard's inception in 2015, agencies have made substantial 
positive strides in improving their information technology 
practices.
    For example, historically, agencies have reported that 
poor-performing projects are often broadly scoped and aim to 
deliver functionality several years after initiation. FITARA, 
however, requires agency CIOs to ensure that IT investments are 
adequately implementing incremental development practices and 
that functionality is timely.
    Since 2015, the portion of agencies' IT projects 
implemented incrementally has risen from 58 percent to 78 
percent. Among the FITARA scorecard categories with the 
greatest impact on taxpayer savings is the IT portfolio review 
process known as PortfolioStat.
    Since 2015, the amount of money agencies have reportedly 
saved, including the costs they have avoided as a result of 
their PortfolioStat effort, has risen from $3.4 billion to 
$23.5 billion.
    This increase includes $1.3 billion related to eliminating 
duplicative software licenses and about $7 billion in savings 
on data center consolidation. I might add, parenthetically, 
this committee will insist that the law be complied with in 
full.
    The law circumscribes how data center consolidation is to 
occur and we will not suffer any delusion in the idea of data 
center consolidation or in the metric surrounding it.
    We will insist the law be complied with and, if necessary, 
on a bipartisan basis I believe we are prepared to pass 
additional legislation for clarification if that is needed. 
Hopefully, it won't be.
    I look forward to hearing from our witnesses on how they 
can continue to save taxpayer dollars while also ensuring 
agencies improve and fortify their IT infrastructures to better 
serve the public.
    In addition to modernizing and acquiring the right 
technology, agencies must fill the skills gap in IT positions 
across the Federal Government, a big challenge.
    Our Federal IT work force is rapidly aging into retirement. 
As of March 2021, 3.3 percent of the Federal Government's full 
time IT employees were under the age of 30--3.3 percent. Fifty-
two-point-five percent were over the age of 50.
    Federal agencies must focus on recruiting and hiring young 
IT professionals with the knowledge and skills needed to 
address the technology challenges of tomorrow.
    At the very first FITARA hearing, former Department of 
Transportation CIO Richard McKinney stated, ``IT is no longer 
just the business of the CIO. It is everybody's business.''
    Never has this been truer or clearer than in the wake of 
the coronavirus pandemic, where IT saved thousands of lives by 
enabling telework and keeping the government and the economy 
running.
    We have seen firsthand how the agencies that continued to 
use outdated IT during the pandemic struggled to serve the very 
people who rely on them.
    Some agencies remained mired in backlogs, including the 
National Archives and Records Administration, which failed to 
digitize critical veterans' records, and we are now paying a 
price for that.
    The archives now reports a years-long backlog in providing 
veterans' access to records that qualify them for medical 
treatment, unemployment assistance, home loans, and student 
loans.
    That is why I joined the ranking member, Mr. Hice, in 
urging the national archivist to apply for IT modernization 
funds so government can keep its commitments to our Nation's 
veterans.
    Unfortunately, NARA is not the only Federal agency plagued 
by legacy IT systems. Congress and the administration must work 
together to prioritize IT modernization across the Federal 
Government.
    With the Delta variant on the rise across the country and 
vaccinations flat lining, the stakes for effectively 
implementing FITARA are higher than ever.
    When executed well, government IT modernization can ensure 
the efficient delivery of critical services. It can improve the 
government's knowledge and decision-making and save lives.
    When executed poorly, it leads to outright failures in 
serving the American people when they need their government the 
most, and we have seen that too in the pandemic.
    Simply put, the fate of the world's largest economy 
actually rises and falls in part with the ability of the 
government IT systems to deliver in an emergency.
    The importance of Federal agencies' effective use of IT is 
too great to ignore, and this subcommittee won't waver in its 
continued oversight of agencies' IT acquisition and management.
    And I might say, this is our twelfth scorecard hearing. I 
don't believe there is another committee in Congress that can 
match this record on a single piece of legislation in terms of 
oversight.
    That is how committed we are and have been on a bipartisan 
basis throughout the years. And, of course, the co-author of 
FITARA, Mr. Issa, will be joining us a little bit later in the 
subcommittee hearing, and we are very pleased to have him back.
    So, with that, the chair recognizes the distinguished 
ranking member, Mr. Hice from Georgia, for his opening 
statement.
    Mr. Hice. Thank you, Mr. Chairman. I appreciate you holding 
this hearing.
    And first of all, I do want to welcome Clare Martorana for 
joining us today and for your first time as the role of the 
Federal chief information officer. We welcome you here today.
    Given your experience as an agency CIO, I really am 
interested to get your perspective on the FITARA scorecard and 
the IT dashboard and, for that matter, actually, to help 
agencies' CIOs manage their portfolios and help OMB with its 
own government-wide oversight efforts or if these are just big 
reporting exercises. I look forward to hearing your perspective 
on all of that.
    As the chairman said, this is the twelfth time that we have 
had a FITARA scorecard. I know it has changed over time. But to 
me, the overriding question is and always will be are we 
spending Federal IT dollars well.
    I mean, at the end of the day, that is the issue. And, you 
know, are projects coming in on time? Are they on budget? Do 
they do what they are supposed to do? Why or why not?
    I mean, these are just basic questions that we need to face 
and that we need answers for, and that we need to keep a pulse 
on as we go through all of this.
    These are important questions, and the answers to these 
questions shine the light on pretty much everything else, 
whether it is procurement, work force, organizational 
structure, culture, and on and on. So, the score card has 
evolved in the past.
    Frankly, I think it is time that we take a fresh look at 
the whole FITARA process through the lens that I have just 
described, with any reported metrics reflecting measurable 
legislation or executive branch policies. We have got to be 
objective and quantifiable, and it needs to be reported in a 
matter that is comparable agency to agency.
    So, I get it that all of that is probably easier said than 
done. I mean, I know that. But nothing around this place is 
easy. But I would like to take a good look at these type of 
things, frankly, before we move on to FITARA 13 and 14.
    I also think the subcommittee needs to take a good look at 
a few other issues, Mr. Chairman, and I would put this out 
there. What is the state of IT modernization, generally 
speaking? I know Congress passed the MGT Act and now there is 
billion of dollars, really, in technology modernization. Those 
funds are to be spread around.
    But what is its impact? What are we really getting in 
relation to modernization? Is it happening? Is it having the 
impact that it is going to point toward the kinds of 
modernization experiences that you have described in your 
testimony, Ms. Martorana?
    Second, are our systems safe? This is an issue that has 
come up time and again in hearings. As much as any system can 
be safe, are our systems safe?
    In its testimony, the GAO's top concern revolve around 
cyber issues. It is an issue we have got to deal with, and I 
believe the scorecard needs to hone in on those types of 
questions.
    Given the critical nature of the topic, is it enough just 
to have it to be a subcomponent of the broader scorecard? Or is 
it time to figure out a way to shine the spotlight on this area 
without tipping off the bad guys of our vulnerabilities? I 
think we have got to address this.
    And then, finally, how well are the American people being 
served? I think the scorecard needs to reflect this. At the end 
of the day, the Federal Government is here to serve the 
American people, and we need to know how effective we are doing 
in that.
    How easy is it to access government services and benefits 
through digital means? In the private sector, you don't survive 
for long if you don't excel in this area, and I believe we need 
to take a look at it on the Federal perspective as well.
    And, Ms. Martorana, again, in your testimony we share the 
view that you said, quote, ``The Federal Government is 
fundamentally in the service business.'' I totally agree with 
you on that. In fact, I couldn't agree more.
    So, all of the items that I have mentioned here are 
important. But I would like to specifically ask my colleague 
from Virginia, Chairman Connolly, if we could look at some of 
these issues, going forward.
    I think these are worthy not only of attention, but of fine 
tuning the scorecard as a whole. I will put that out there. I 
am not finished but----
    Mr. Connolly. I will respond to my colleague, of course, 
and, in fact, I definitely see the FITARA scorecard as always a 
work in progress.
    Mr. Hice. Right.
    Mr. Connolly. And the only caution is, as you can see from 
the grades in front of us, we have not yet succeeded in full 
implementation.
    So, we don't want to lose our sight of that. But we also 
always want to be capturing other dynamics as we learn and as 
we see performance in the Federal Government.
    So, I couldn't agree with you more.
    Mr. Hice. I thank you, Chairman.
    Mr. Connolly. And, absolutely, we will work with you.
    Mr. Hice. Thank you, Mr. Chairman.
    And the last point I will make is this. I have made clear 
the focus of the administration. They should be having Federal 
employees return to their offices. But I am concerned that the 
emphasis instead appears to be on institutionalizing expanded 
telework.
    So, I am glad that we are joined by the CIO of the Social 
Security Administration today as well. So, this is one of the 
agencies facing the greatest challenge in providing the 
American people with services that they need, and if SSA is not 
going to reopen more rapidly then I will be interested to learn 
how improved IT can help improve citizens' experience.
    So in closing, again, I want to thank our witnesses for 
being here. I am eager to hear the insight and the suggestions 
as we move on to FITARA 13 and 14 and beyond. I look forward to 
hearing our discussion today.
    And with that, Mr. Chairman, I yield back. Thank you.
    Mr. Connolly. I thank the ranking member, and I thank him 
for his cooperation in this and other endeavors.
    I see we have been joined by the ranking member of the full 
committee. Does he wish to make any statement?
    OK. Welcome, Mr. Comer. Glad to have you.
    With that, let me introduce our witnesses. We have four 
witnesses today, and I am going to swear them in. But, first, 
let me introduce them.
    Our first witness is Clare Martorana, who is the Federal 
Chief Information Officer, finally, at the Office of Management 
and Budget. We are so glad to have you today.
    Then we are going to hear from Keith Bluestein, Chief 
Information Officer at the Small Business Administration.
    Third, we will hear from Sean Brune, Chief Information 
Officer of the Social Security Administration.
    And finally, we will hear from our long partner, Carol 
Harris, Director of Information Technology and Cybersecurity at 
the GAO, the Government Accountability Office, which actually 
helped design and continues to help us update and modify the 
scorecard.
    If all of our witnesses could stand and raise their right 
hand to be sworn in, which is the custom of this committee and 
subcommittee.
    Do you swear to affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Witnesses are sworn.]
    Mr. Bluestein. I do.
    Mr. Connolly. Mr. Brune?
    Mr. Brune. Yes.
    Mr. Connolly. Yes. OK. Let the record show all four of our 
witnesses have answered in the affirmative. You may be seated. 
Thank you.
    With that, Ms. Martorana, you are recognized for your 
opening statement. We will ask all of our witnesses, if you 
could, your full statement will be entered into the record as 
written. We would ask you to try to summarize your testimony in 
a five-minute opening statement.
    Ms. Martorana?

    STATEMENT OF CLARE MARTORANA, FEDERAL CHIEF INFORMATION 
            OFFICER, OFFICE OF MANAGEMENT AND BUDGET

    Ms. Martorana. Chairman Connolly, Ranking Member Hice, and 
members of the subcommittee, thank you for the invitation to 
testify about the twelfth FITARA scorecard.
    Technology enables mission delivery. It is FITARA that 
gives every CIO a seat at the table to make the best IT 
decisions to deliver for our citizens, and it is enterprise 
collaboration that will be key to making it all happen.
    I would like to thank the committee for your leadership 
promoting modernization. I believe we must take on this 
challenge together to secure Federal IT and deliver 
transformational services to the American people.
    I would also like to acknowledge Sean, Keith, and fellow--
my fellow CIOs and the entire IT work force across our 
government for their hard work to achieve the grades on this 
scorecard.
    Imagine the day when a citizen can use their mobile phone 
to sign in and see everything that they have in flight with our 
government--a small business loan application, the status of 
their tax refund.
    Imagine the process is easy, understandable, convenient, 
secure, and fast, just like the experiences we have with online 
banking and food delivery.
    With the amount of information we collect across the 
Federal Government and the enormous investment of taxpayer 
dollars in Federal IT, this vision is not only possible, it is 
an expectation in the 21st century.
    For over 20 years in the private sector and the past five 
years in government, I have used innovative technology and 
human-centered design to improve people's lives. As Federal 
CIO, I will use my expertise to scale these successes across 
the Federal enterprise.
    Federal employees are counting on us and, more importantly, 
your constituents, the American people, are not only counting 
on us, they are asking us to move faster.
    We can get there by focusing on three priorities that I 
address, the long term goals and urgent circumstances we find 
ourselves in today.
    First, cybersecurity is our immediate priority in Federal 
IT. Cybersecurity is a national priority. I am committed to 
ensuring every agency is ready for today's threats.
    The cyber executive order puts us on a good path to faster 
incident response and stronger protective measures. By working 
rapidly and seamlessly, we can achieve results and we must. Our 
adversaries are on the move and they are aggressive.
    Second, I am committed to modernizing Federal IT. The $1 
billion appropriation to the Technology Modernization Fund, or 
TMF, is an important start to improving the government's IT 
systems.
    But it is just a down payment on the multi-year technology 
modernization projects Federal agencies have identified. The 
TMF board has received 108 proposals in our accelerated model, 
totaling $2.1 billion since the rollout of the funding provided 
by the American Rescue Plan.
    And third, we must focus on service delivery to the 
American public. It is not our citizens' job to figure out how 
to navigate across a department or agency silos to gather the 
services they deserve.
    That is our job. By transitioning agencies to a product 
mindset organized around users, we can deliver modern efficient 
tools and technology, reduce administrative burden, and spend 
more time on high-value services to the public.
    These challenges have highlighted our need to rethink our 
approach to Federal IT. We must identify new ways of working 
across government, such as developing playbooks that build on 
what we know already works, collaborate more frequently with 
key stakeholders to focus oversight on the work being done 
today, and rethinking how we are working in the office of the 
Federal CIO, such as pairing technologists with our policy 
experts at the beginning of the process to develop innovative 
technology solutions within our laws, rules, and regulations.
    Finally, we must optimize for results, not optics. We need 
to show, not tell, and deliver on our mission. As we begin this 
new chapter of Federal IT modernization, we are building on a 
strong foundation.
    I am excited to enable the government's diverse missions as 
Federal CIO, and I look forward to partnering with Congress.
    Thank you for the opportunity to testify today and I am 
happy to take your questions.
    Mr. Connolly. Wow. That is a pro. You had 11 seconds left. 
I am impressed. Great start, and we look forward to working 
with you as well.
    Mr. Bluestein--is it pronounced Bluestein or Bluestein?
    Mr. Bluestein. Bluestein.
    Mr. Connolly. Mr. Bluestein. Excuse me.
    Welcome.

  STATEMENT OF KEITH A. BLUESTEIN, CHIEF INFORMATION OFFICER, 
                 SMALL BUSINESS ADMINISTRATION

    Mr. Bluestein. Good afternoon, sir.
    Chairman Connolly, Ranking Member Hice, subcommittee 
members, thank you for the opportunity to discuss the Small 
Business Administration's implementation of FITARA.
    Much has changed since the last time we talked to you about 
FITARA in 2017. To the great benefit of SBA and America's small 
businesses, FITARA has provided the critical structure in tools 
for SBA to optimize, modernize, and innovate while investing in 
the IT work force of tomorrow.
    I would also like to add some other benefits that SBA has 
enjoyed, courtesy of the Modernizing Government Technology Act 
of 2017, or the MGT Act.
    This modernization foundation was vital in enabling 
exponential scaling of SBA's operations to deliver the Nation's 
largest ever economic recovery initiative in a very short 
period of time.
    Just to recall the scale, by October 2020, SBA's disaster 
program approved and disbursed more than three times as many 
funds for the COVID-19 EIDL program as we had for all disasters 
combined in the agency's 67-year history.
    On the capital-access side, SBA issued more loans in 14 
days than they had in 14 years. The scaling challenge was 
daunting, and while there were some hiccups along the way, 
SBA's IT infrastructure proved to be resilient, scalable, and 
adaptable to the changed business requirements, such as 
transitioning to the maximum telework model.
    When I rejoined SBA in June 2020 as the CIO, SBA had 
already adapted to the changed conditions due to the COVID-19 
global pandemic.
    The flagship economic recovery programs, EIDL and PPP, were 
already in high gear, and the SBA work force was rapidly 
surging up after smoothly transitioning to remote work.
    An accelerated deployment of online collaboration tools and 
training had helped the SBA staff to continue to be productive 
and not miss a beat while maintaining a robust security 
posture.
    FITARA had solidified the coordination and collaboration 
between the CIO and the chief human capital officer and the 
chief procurement officer. These two relationships and the 
supporting infrastructure that resulted were the key 
underpinning foundation that enabled the SBA surge for the 
pandemic response.
    We tend to focus on technology with CIO-related activities. 
But FITARA took a much broader approach to how the CIO becomes 
a valued mission partner in the agency. The pandemic relief 
and, more specifically, the CARES Act, brought into clear 
relief how important these relationships are.
    Had they not existed prior to the passage of the CARES Act, 
there is likely no way SBA could have responded with the speed 
that we did. SBA surged from approximately 5,000 employees to 
over 18,000 in only a couple of months.
    Hiring on that scale was unheard of prior to the pandemic, 
but the personnel relationships that had developed and 
cultivated were crucial to this rapid expansion.
    Similarly, the need for immediate increase in technical 
support for the agency's systems and employees called for 
acquiring huge volumes of laptops for remote work servers, 
cloud services, software licenses, and contracted support 
teams.
    This was a testament to the great team that procurement 
organization had in place. The ability to surge to the level 
that was needed to support all the CARES Act activity was 
enabled by the tight nexus that had been formed with the CIO 
and CFO through FITARA.
    Looking back now, it is hard to imagine how SBA would have 
been able to support the CARES Act activities successfully 
without the prior work that had been prescribed by FITARA.
    I would like to highlight other legislation as well. One of 
the many IT modernization tools you provided government agency 
is the IT Working Capital Fund, provided for under the MGT Act.
    We have taken full advantage of this capability that 
afforded great flexibilities to CIOs, especially in agencies 
like ours where we deal primarily with one-year appropriations.
    The Working Capital Fund allows SBA to have a long-term 
vision for modernization with a managed resource pool to ensure 
that that vision is realized.
    This tool helped bolster FITARA by strengthening the 
collaborative bond the CIO has with the CFO to execute the 
agency's mission. MGT was a welcome adjunct to FITARA and has 
allowed SBA to better plan and resource expenditures on a 
multi-year horizon.
    A sampling of some of these projects included modernizing 
SBA's infrastructure, unifying and enhancing the customer 
experience, updating support for all small business 
certification programs, and improving systems that manage 
entrepreneurial development, to name just a few.
    I want to circle back on FITARA, though, to highlight that 
none of the success comes without the critical support of the 
administrator and our immediate leadership team.
    FITARA is very clear about the importance of the 
relationship between the department or agency head and the CIO. 
That importance cannot be overstated, but I don't know that a 
solid line in an organization chart always captures the level 
of support that the CIO receives. I understand that scoring and 
the FITARA scorecard reflects less favorably for SBA and other 
CIOs without a solid-line relationship.
    But I can tell you, personally, that I have unmitigated and 
total support from both the former and current administrators. 
While that is a feature envisioned in FITARA, I know this may 
not always manifest itself the same way in every agency.
    I am fortunate. SBA's top leadership always ensures the CIO 
has direct access and has a seat at the table and their voice 
is heard.
    The visibility and inclusion helps to ensure that the 
decisions do not get made in a vacuum or in a siloed fashion, 
and that such resources are allocated such that the maximum 
benefit is realized across the agency.
    In closing, it bears repeating that the extensive 
improvement in SBA operations is a direct result of the 
implementation of FITARA.
    Thank you for the opportunity to share SBA's progress on 
FITARA implementation, and we look forward to answering any 
questions you may have.
    Mr. Connolly. Thank you, Mr. Bluestein.
    Mr. Brune, you are recognized for your five-minute summary 
testimony.

  STATEMENT OF SEAN BRUNE, CHIEF INFORMATION OFFICER, SOCIAL 
                    SECURITY ADMINISTRATION

    Mr. Brune. Thank you.
    Chairman Connolly, Ranking Member Hice, and members of the 
subcommittee, I am Sean Brune, Social Security Administration's 
Deputy Commissioner for Systems and Chief Information Officer.
    Thank you for inviting me to discuss the role of 
information technology and the Federal Information Technology 
Acquisition Reform Act, or FITARA, in delivering Social 
Security services to the public.
    As a former regional commissioner, I know how vital modern 
technology is to carrying out our mission. I also appreciate 
the importance of managing and monitoring information 
technology investments, a key tenet of FITARA.
    Effective use of technology is mission essential. Our 
employees use technology to collect and store information, pay 
benefits, and identify and prevent fraud and improper payments.
    We have known for years that we must modernize our IT and 
we are well on our way, phasing out legacy systems and aligning 
our IT infrastructure with FITARA requirements. We began 
modernizing our IT framework by building a virtual private 
network, or VPN, nearly two decades ago.
    Since then, we have continued these efforts. In 2015, we 
began replacing desktop computers with laptops. In 2017, we 
released an initial comprehensive five-year IT modernization 
plan, and in 2019, we converted to cell phones for improved 
mobility and established the role of the Chief Business Officer 
to partner with the CIO and ensure our IT investments are 
customer focused.
    Our initial 2017 IT modernization plan focused on replacing 
aging systems and improving service through technology. In 
2020, we updated this plan to accelerate delivery of modern 
software and expand self-service options.
    The 2020 update is our current roadmap, and we will 
continue to update it and prioritize IT initiatives as needed 
to align with the agency's strategic goals.
    The pandemic underscored the importance of IT to our 
mission and highlighted the success of our modernization 
efforts.
    Last March, when we shifted to telework to keep everyone 
safe, our secure VPN, laptops and cell phones helped us 
transition over 90 percent of Social Security employees and 
thousands of state employees who make medical determinations to 
telework within a few weeks.
    Technology has allowed us to continue to serve the public 
through online and telephone services, while we limited in-
person service to critical situations.
    The pandemic also emphasized the need to further expand 
electronic self-service options for the public and to 
restructure outdated work processes.
    To meet our customers' needs, we quickly implemented new 
electronic signature options, modern processes for submitting 
forms online, and increased their use of video to conduct 
disability hearings.
    This year, we began rolling out a modern unified 
communications platform to improve customer service when people 
call us. We are also revamping our public-facing website, 
socialsecurity.gov, to streamline content and redesign the 
homepage. We plan to fully implement the new website next year.
    Technology supports improving public service. FITARA and 
this committee's scorecard help us assess our progress in 
managing our IT infrastructure and provide guideposts for 
improvement.
    In accordance with FITARA, we make informed funding 
decisions on IT investments by leveraging some commercial off-
the-shelf products and executing incremental product 
deployment.
    As a result, we have maximized resources, expanded digital 
services on our online channel, My Social Security, and ensured 
the security and stability of these new service options.
    Moving forward, we will offer more streamlined and 
automated self-service options and enhance in-office service 
for people who need them while maintaining a robust 
cybersecurity program.
    We appreciate President Biden's Fiscal Year 2022 
discretionary request of $14.2 billion, which will help us 
continue to build the secure, efficient, customer-centric IT 
infrastructure of tomorrow.
    In closing, I want to thank our Social Security employees 
for their resilience and dedication to our mission during this 
challenging time.
    I appreciate the opportunity to be here today to update you 
on SSA's progress and I look forward to answering any questions 
you may have.
    Mr. Connolly. Thank you, Mr. Brune. Right on time. And we 
join you in thanking all of our dedicated public servants in 
all of our Federal agencies who have continued to function and 
serve the American public during this unprecedented pandemic. 
Thank you.
    Ms. Harris, welcome back. What do we need to know?
    Ms. Harris. Thank you.
    Mr. Connolly. You are recognized.

STATEMENT OF CAROL C. HARRIS, DIRECTOR, INFORMATION TECHNOLOGY 
      AND CYBERSECURITY, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Harris. Chairman Connolly, Ranking Member Hice, and 
members of the subcommittee, I want to thank you and your 
excellent staff for your continued oversight of Federal IT 
management and cybersecurity with this twelfth set of grades.
    Your scorecard continues to serve as a key barometer for 
measuring FITARA implementation as well as other essential IT 
reform initiatives.
    Since the December 2020 scorecard, progress made by the 
agencies to implement FITARA has slowed a bit, with 18 
agencies' overall grades unchanged, two with decreases, and 
only four with increased grades.
    Most agencies receiving a pass--most agencies received a 
passing C or higher grade, with DOJ receiving the only D. GSA 
was the only agency to receive an A for this iteration. I will 
now share some key highlights from this twelfth scorecard.
    First, cybersecurity continues to be an area of struggle 
for the agencies. One-third of them have a D or F and another 
third are getting by with a C.
    This is also consistent with our body of work in Federal 
cybersecurity. We have reported on the agencies' need to 
address information security program weaknesses, including 
establishing an enterprise-wide cyber risk management program.
    For example, in July 2019, we found that while the 23 
civilian agencies almost always designated a risk executive, 
they had not fully incorporated other key risk management 
practices, such as setting up a process for assessing agency-
wide cybersecurity risks.
    Having mature cyber risk management programs would help 
agencies improve in the areas that the IGs are looking at and, 
in turn, increase their cyber grades on the scorecard.
    As another example, in December 2020, we found that few 
civilian agencies had implemented foundational practices to 
mitigate global IT supply chain risks.
    In the wake of the SolarWinds incident, which involved a 
software supply chain compromise, the need for robust and 
comprehensive supply chain risk management program is 
essential.
    We have, roughly, 950 open recommendations to the agencies 
in OMB, covering a range of cyber-related issues, and actions 
are needed to--are needed on these to help improve our Nation's 
cybersecurity posture.
    Now to my second point. About half of the agencies have an 
MGT Working Capital Fund or have plans to set one up by 2022. 
These funding vehicles, along with the Technology Modernization 
Fund, are intended to help agencies tackle their legacy IT 
problem.
    At least 60 percent of the Federal Government's IT spend 
each year goes toward maintaining aging systems. Only 13 
percent is spent on modernization projects.
    Establishing these funds are critical so that savings from 
data center optimization and PortfolioStat efforts can be 
reinvested in agency IT modernization priorities, and the 
recent gains by the agencies in this area would not have been 
possible without your persistent leadership. So, thank you very 
much there.
    I will now turn my comments to SBA and SSA. These agencies, 
collectively, plan to spend $2.1 billion on IT this year. SBA 
spends about 80 percent of its IT budget maintaining legacy 
systems while SSA's is about 60 percent.
    SBA has an overall C+ grade, which is a slight decrease 
from its solid B+ performance in years past. SSA has made some 
noteworthy progress from its D grade on the first scorecard 
back in 2015 to a B+ today.
    Some positive areas to highlight for both, they have 
achieved their data center closure goals as well as completed 
most of their optimization and savings goals for the fiscal 
year.
    The SBA and SSA CIOs also report directly to the heads of 
their agencies. For SBA, progress in the area of IT portfolio 
review continues to be lacking. Its savings ratio was ranked 
21st among the agencies with $14 million in reported savings 
and cost avoidances since 2012. For SSA, the level of 
transparency in its evaluation of major IT investments could be 
improved.
    The agency spent $177 million on major IT in Fiscal Year 
2021 and did not rate any of those investments as red, leaving 
SSA ranked 20th among the agencies in risk transparency.
    Mr. Chairman, that concludes my comments on the overall 
scorecard and the results for these two agencies, and I look 
forward to your questions.
    Mr. Connolly. Thank you very much.
    I just, editorially, want to remind everyone, the word Mr. 
Issa and I wrote into the law is consolidation, not 
optimization, and it is a legal requirement to consolidate data 
centers.
    When we began that effort, Mr. Vivek Kundra, then your--
well, I guess he was CTO. But he estimated, I want to say, and 
this is 2009, that the Federal Government overall had something 
like 1,800 data centers and he proposed we cut them in half.
    And in our law, we basically said we will cut that in half 
again. You know, get them down to 450 or something like that.
    Well, when we had our first hearing on how are we doing, we 
not only didn't make any progress in consolidation, the only 
progress we made was in identifying the fact that we had a lot 
more data centers than we thought, and I want--I want to say it 
was something ridiculous like 12,000 or something like that, 
the first iteration. So, we got really good at identifying, 
well, there is one, there is another one.
    But our point was it is inefficient and there are savings 
to be had and we have to do that. And so you inherit this 
slight contretemps from OMB that has sought, from our point of 
view, to dilute what the law stipulates. And it is not just 
that we are being critical.
    We, honestly, think it is a worthy goal to urge people to 
consolidate and move to the cloud. So, we want to work with 
you. And that is just an editorial comment, not a question, but 
we can get into that later.
    The chair now recognizes the distinguished Congresswoman 
from the District of Columbia, our friend, Ms. Norton for her 
five minutes of questions.
    Ms. Norton?
    Ms. Norton. I thank my good friend and regional partner, 
Mr. Connolly, for this hearing.
    And I want to--I want to ask questions about how outdated 
our legacy systems are and what we can do to modernize them.
    We saw examples of that during the pandemic, which is why I 
want to raise this issue, because they prevented continuity of 
agency operations in some critical cases.
    Let me start with Ms. Martorana, because I appreciate your 
remarks on the importance of modernizing Federal IT.
    Now, I want to recognize the complexity of that process, 
which, unfortunately, gets oversimplified by thinking about 
certain systems as either legacy or modern.
    So, Ms. Martorana, can you talk about how to look at the 
modernization process and the prioritization of Federal IT 
modernization efforts?
    Ms. Martorana. Thank you for that question. I appreciate 
it.
    I think you hit on a key point, which is modernization is a 
continuous process. Every system is at a different stage of 
needing modernization, and we have a complex set of 
environmental challenges with both end-of-life systems that we 
have to modernize across the Federal enterprise, and also 
innovative and evolving technology that we would like to 
continue to support, like the CloudSmart Initiative and 
continuing to move our Federal work force and our IT posture 
into the safest, most secure disposition that we possibly can.
    So, I think that the opportunity to utilize programs like 
TMF are really a significant movement forward in our ability to 
actually deal with the IT modernization challenges in front of 
the government.
    Ms. Norton. Thank you.
    Let me go to Mr. Brune because of how far Social Security 
may be. In 2017, Social Security spoke of a five-year IT 
modernization plan. I would like to know how this plan has 
helped Social Security prioritize the retirement of legacy 
systems.
    Mr. Brune. Thank you, Congresswoman, for the question.
    We are in the tail end of the fourth year of our five-year 
modernization plan. That plan has focused on addressing older 
legacy core mission systems, the systems that are used to pay 
retirement insurance benefits, disability insurance benefits, 
and to issue Social Security number cards.
    We are on track, on schedule, and on budget with our plan. 
We appreciate that Congress has appropriated dedicated 
appropriations to support our multi-year plan, which has 
allowed us to plan and execute development and procurement 
across fiscal years.
    Some of the results of our plan are increased use of our 
online channel. We have over 60 million persons across the 
Nation who have a My Social Security account, a secure portal 
where they can see, as the Federal CIO said in her opening 
statement, what the status of their Social Security benefits 
is.
    If they are still working and planning for future 
retirement, they can get an online estimate of their 
personalized retirement at any point in time. If they filed a 
claim they can check on their--on the website or on their phone 
what the status of their claim is.
    We have also improved our use of the online channel and the 
phone channel for handling work during the pandemic by allowing 
scheduled appointments and by increasing our use of video 
service.
    Ms. Norton. I see my time has expired. Thank you, Mr. 
Chairman.
    Mr. Connolly. Thank you, Ms. Norton.
    And I would just add, Mr. Brune, to your list of impressive 
achievements I have been impressed with your ability to flag 
fraud or attempted fraud, which I think is really a protection 
for the American consumer and beneficiary of Social Security.
    I don't know quite how you do it, but I was almost a victim 
myself and it was Social Security that caught it and had a 
solution for it.
    So, I was personally really impressed. If you are doing 
that across the board that is a great use of technology to 
protect the American people.
    Mr. Hice is recognized for his five minutes of questions.
    Mr. Hice. Thank you very much, Mr. Chairman.
    Ms. Harris, let me begin with you. You brought up in your 
testimony that some of the top items, in fact, really the top 
item, I believe, was your wording, that GAO lists for action 
deals with cybersecurity, and I certainly agree with you on 
that.
    But looking at the current scorecard that we have makes me 
just wonder a couple things. First of all, is cyber, in your 
opinion, weighed heavily enough in the FITARA scorecard?
    Ms. Harris. Well, I think that is certainly--you know, I am 
always happy to have my team work with you and your staff to 
make sure that the purpose of the scorecard is meeting your 
oversight needs, first and foremost.
    When it comes to cybersecurity, I think that there--it is 
multi-dimensional and, certainly, with the FISMA grade itself 
as it--as it is shown on the scorecard, I mean, that is 
measuring one dimension of cybersecurity, but there are 
certainly others.
    So, again, you know, when we take a look at the scorecard, 
it is--it is really ensuring that it is fulfilling the purposes 
of your committee and as far as oversight is concerned.
    So, we are happy to take a look and evolve that at--you 
know, at your direction.
    Mr. Hice. Well, based on that, then would you be in favor 
or do you think it would be wise for us as a subcommittee to 
consider cybersecurity as an independent issue? Should there be 
a scorecard that focuses specifically on cyber?
    Ms. Harris. We would be happy to entertain that and see 
what can be done. I think one of the challenges that we have as 
far as either expanding the current FITARA scorecard to include 
additional areas of cybersecurity or having a stand-alone cyber 
scorecard is the availability of public data because, 
certainly, we don't want to put agencies at greater risk in 
identifying those and pointing out those vulnerabilities 
publicly.
    So, I think that is the greatest challenge that we face.
    Mr. Hice. Yes, no doubt. That is--that is a challenge, and 
we have got to be very careful with that. At the same time to 
have appropriate oversight as it relates to cyber issues, we 
need some sort of, within this context of this hearing, a 
scorecard to determine how are we doing on the cyber issues.
    So, you would be willing to work with us on trying to 
figure out some sort of plan? And when I say us, it would be me 
and the chairman as well. I mean, let us try to deal with this.
    Let me ask you this, and this is a question I have had for 
a long time and I think you are the one to ask.
    In previous FITARA hearings, it was stated that over $22 
billion have been saved, attributed directly to FITARA. I can't 
figure out where that figure comes from. What is the--what is 
the metric? How is that figure determined?
    Ms. Harris. It is agency-reported data, and that is coming 
out of data center consolidation as well as PortfolioStat 
efforts.
    And we have not taken a systematic look at the savings that 
are being reported by the agencies in terms of how they are 
reinvesting that--well, first of all, collecting and reporting 
the total savings that they are getting from these initiatives 
as well as how they are reinvesting it.
    So, but I can tell you, though, that what you just cited 
right there comes from data center consolidation and 
PortfolioStat initiatives.
    Mr. Hice. But we are not looking into it to see if it is 
accurate. Is that what I am hearing you say?
    Ms. Harris. Well, we have not, but we are, certainly, happy 
to take a deeper look into that. I think that that would be a 
very insightful review that we would be happy to do for you.
    Mr. Hice. Yes, I think it would be very insightful, too, 
and, you know, obviously, we don't have the same--I don't have 
access to the same information you have in looking at all this.
    But I see those numbers thrown out there and I am just 
curious. I mean, that is a great number, if it is accurate, but 
I want to know where does this come from and what is the 
accuracy of it, and it sounds like you really have the same 
kind of questions because you have not been able to dig deep to 
see just--OK.
    All right. Well, with that, Mr. Chairman, I will--I will 
yield back.
    Mr. Connolly. I thank the chair--I thank the ranking member 
and I would just caution, let us verify that number right after 
our elections.
    [Laughter.]
    Mr. Connolly. All right. The incredible gentleman from 
Massachusetts, who represents my family back home in Boston, 
Mr. Lynch.
    Welcome, and you are recognized for your questioning.
    Mr. Lynch. Well, thank you very much, Mr. Chairman, and 
thank you for this very, very important hearing.
    You know, I would like to just offer this out for the 
witnesses. You know, there is such a gap in IT talent, 
generally, but especially in the Federal Government, because 
we--we have got this turnover.
    We all have bright young people that come to work for us 
and when they gain a certain amount of ability and technical 
skill, they move on because of higher salaries that we cannot 
offer them.
    But, generally, in the IT work force across the Federal 
Government, there is a real skills gap. I think right now we 
have got about--a little more than three percent of the IT 
workers in the Federal Government are under 30 years of age and 
half of the IT work force is over 50. So, we got about--we got 
to think about playing the long game here.
    You know, China does this. They think in terms of decades, 
and one of the--one of the solutions, I think, is really to 
have Federal resources. You know, encourage and build 
incentives for young people to get into STEM-related 
professions.
    So, I found that in Boston I founded a charter school based 
on STEM. Basically, we did--we took the curriculum that the 
regular public schools has in Boston and then we tripled the 
amount of math and science that these kids are exposed to over 
their--over their, you know, grammar school and high school 
lives.
    So, we are having great results, and that is without 
incentives, right. That is just offering that school, and it is 
a lottery. We have probably one of the most diverse populations 
in that school--you know, kids of every race, ethnicity, you 
know. It is--it is a model to behold.
    But we need to do more on a bigger scale, and I am just 
wondering, do we have any programs that, let us say, offer 
these young people help with their student loans or are there 
any programs where we actually support schools like my charter 
school that focus on, you know, STEM education so that we 
create this work force of the future?
    There is such a huge gap right now. We can't close it in 
the short term, not under the existing circumstances. But over 
time, you know, we can--we can close this gap, but only if we 
take deliberate action and we stick to it.
    And I am just wondering, on that skills gap issue if any of 
our witnesses have any recommendations or any examples that 
provide best practices on how to--how to fill that gap and how 
to--how to put the right people in the right positions to move 
the country forward and to protect us.
    Mr. Connolly. Ms. Martorana, I think you are best 
positioned to begin to answer that question.
    Ms. Martorana. Thank you very much for the question.
    The administration is focused on building a world-class 
team of professionals with skills in these critical technology 
areas. We have an enormous resource in our Federal Government 
with our Federal employees.
    I really encourage us to continue to look at re-skilling 
and up-skilling opportunities in our government with our own 
Federal work force.
    In addition to that, there are numerous programs that are 
going on across the Federal Government: the United States 
Digital Service, 18F, the Civic Fellows Program. So, there is a 
lot of effort in this area and I think that we have a great 
opportunity because people have a desire to serve our country, 
and there are many different channels that we can plug into to 
make that opportunity available.
    I am a great example of someone who came to do a tour of 
service and wound up being so inspired by the mission that I 
felt the need to stay and continue to work in this environment.
    So, I think that there are opportunities. I know the 
administration is focused on making sure that our work force 
looks like our country and that we have opportunities to 
recruit cyber talent, IT talent, and other subject matter 
experts across our government.
    Mr. Lynch. I appreciate that, Ms. Martorana. But it is a 
different--well, first of all, it is a very--it is a smaller 
pool of people when you just look at our Federal employees, and 
I personally know some Federal employees that are still walking 
around with flip phones.
    So, what we are trying to do is increase that pool of 
talent. It will not only help the Federal Government, it will 
help private industry, and first of all, it will help those 
kids because, you know, we have found that regardless of 
background, if you have a program of total immersion with these 
young people, and you have a 12-year runway of their education, 
you can really make a big impact on increasing the pool of 
talent and the quality of that talent, going forward.
    So, if we are--you know, if we are training somebody who is 
50 years old, you know, there is a limited horizon for that 
worker between investing, training, and then they are off into 
retirement.
    So, what I am suggesting is to lengthen out that runway and 
populate it with a much larger population that we could train. 
But maybe that is something I need to work on in terms of, you 
know, a scholarship program or something like that that would 
be available to these grammar schools.
    It does fit very neatly with the president's initiative to 
offer universal Pre-K where we get kids in at that early age 
and we provide them with, you know, the rudimentary beginnings 
of an education in STEM.
    So, with that, Mr. Chairman, I thank you for your kindness. 
I thank you for all the great work that you do. I want to thank 
our witnesses. Very important issue.
    And I yield back. Thank you.
    Mr. Connolly. Thank you, Mr. Lynch, and you really raise a 
good point about the need to recruit and retain the work force 
of the next generation, and I would love to work with you, Mr. 
Lynch.
    I have a bill I am developing on using the Federal--a 
Federal internship program to populate the vacancies we are 
projecting for the future.
    We do a lousy job of Federal interns compared to the 
private sector, and so it is something ripe for improvement 
that could actually be a huge part of the solution, including 
in the IT sector itself.
    So, I look forward to working with you, Mr. Lynch, on that.
    Mr. Lynch. Happy to do that. Thank you, Mr. Chairman.
    Mr. Connolly. Thank you, Mr. Lynch.
    Mr. Keller is recognized for his five minutes.
    Mr. Keller. Thank you, Chairman Connolly and Ranking Member 
Hice, for having this hearing. Also, thank you to our witnesses 
for participating and joining us this afternoon.
    The FITARA scorecard remains a valuable tool in assessing 
the modernization of the Federal Government's IT system and 
cybersecurity infrastructure. Strengthening our Nation's IT 
infrastructure and cyber grid is a goal we can all work toward.
    The Federal Government spends, roughly, $100 billion on 
cybersecurity and IT investments annually, yet we still face 
challenges securing some of our Nation's most sensitive IT 
systems.
    These challenges have been highlighted by the recent events 
such as the Colonial Pipeline and SolarWind's cyber attacks. 
Congress and the administration must now look at cost-effective 
strategies to improve our Nation's IT systems and cyber 
readiness.
    Ms. Martorana, I have concerns regarding the cost of 
implementing technological changes. In December 2019, Congress 
appropriated about $125 million to the Technology Modernization 
Fund.
    However, agencies encountered financial problems with 
monitoring the fund. As of June 2021, approximately $89 million 
of the fund has been awarded to 11 projects across seven 
Federal agencies. Not even 10 percent of the money allocated 
for these--in this fund.
    What tools can Congress provide to OMB to improve cost 
estimating practices?
    Ms. Martorana. Thank you very much for that question.
    It is--OMB is committed to full transparency in Federal IT 
spending and performance data. So, we would welcome feedback 
and continued collaboration on making sure that we are 
completely transparent on those numbers.
    With relation to the Technology Modernization Fund, I can't 
speak very in detail about what happened prior to me joining. 
But I can tell you a little bit about how we are utilizing the 
Technology Modernization Fund since we have been appropriated 
the additional $1 billion under the American Rescue Plan.
    We have--as I said in my opening statement, we have 108 
projects that have come in from 43 different agencies, and I 
think it really represents the market demand for flexible IT 
modernization funding and our ability to work collaboratively 
to continue on the IT modernization journey that most agencies 
have a pretty significant backlog in their own portfolio for 
these projects.
    Mr. Keller. You had mentioned that you couldn't speak 
before you came into the agency. Are some of the same people in 
the agency today that were in when we had appropriated the 
money before with this new money that you referenced in the--in 
the American Rescue Plan?
    Ms. Martorana. I am sure that there are some OMB employees 
that are--have been in tenure during the length of TMF being 
stood up.
    But I can really tell you since I have joined there is a 
real commitment not only to the TMF and the IT Modernization 
Fund, but we are having very active conversations with all of 
the staff at OMB about agencies' needs, focused on 
cybersecurity as a primary, but IT modernization goes hand in 
hand with cybersecurity.
    Mr. Keller. So, you have taken proactive steps to make sure 
the same thing doesn't happen with this money as happened with 
the previous money that you can't tell us about? I mean, that 
you can't reference since you weren't there?
    Ms. Martorana. Yes, we are working kind of on a two-pronged 
strategy. One is when we identified the payment flexibility for 
TMF under the American Rescue Plan, we asked--put out a call to 
agencies saying, come and tell us in four category areas where 
you need the most investment, and that was high-value assets 
that need to be modernized, cybersecurity, public-facing 
digital services that were identified through the COVID 
pandemic, and shared services where multiple agencies could 
benefit.
    And so under that framework agencies came to us with this 
108 project proposals and they are still coming on a rolling 
basis. We also, as a board, want to take a top-down look as 
well to see where we can have the greatest impact across the 
greatest number of agencies.
    So, take an area like cybersecurity. We don't start from a 
blank piece of paper, right. Any of the--my fellow CIOs would 
probably attest to the same. We are all trying to solve the 
same problems whether we have legacy IT, end-of-life systems, 
or systems that are a little bit more modern but could benefit 
from innovation that is going on in the private sector.
    So, we are looking from a top-down perspective as well as 
really trying to source from agencies' need directly.
    Mr. Keller. But no specific tools that Congress needs to 
provide at this point in time to OMB to improve cost estimating 
practices? I mean----
    Ms. Martorana. I think I would look forward to working with 
you and your staff and continuing to have a conversation about 
that.
    Mr. Keller. OK. Thank you. I yield back.
    Mr. Connolly. Thank you, Mr. Keller.
    I would just observe that the witness said something I 
think that is really important that goes to part of your 
question, and what Mr. Hice was getting at earlier.
    Cybersecurity is not a separate topic compartmentalized 
from the IT system in place. If you are working on a legacy 
system, many of them were developed long before encryption was 
developed and they aren't adaptable or not easily adaptable. 
They are vulnerable systems.
    That is why our effort here at modernizing IT is directly 
related to cyber capability. They are not separate subjects, 
and I think your question gets at that. And I really appreciate 
the answer the CIO of the Federal Government, because that 
often gets overlooked. Thank you so much.
    The gentlelady, our vice chair for this subcommittee, Ms. 
Porter, is recognized for her five minutes. Welcome.
    Ms. Porter. Thank you very much.
    In June 2019, about two years ago, the Office of Management 
and Budget issued a memorandum that updated the reporting 
requirements for Federal data centers. Among other things, this 
guidance redefined the data center as a purpose-built 
physically separate dedicated space that meets certain 
criteria.
    And as a result, agencies have excluded about 4,500 data 
centers from their inventories.
    Ms. Harris, is OMB's current guidance on Federal data 
centers in compliance with FITARA?
    Ms. Harris. The short answer is no.
    Ms. Porter. I will take the short answer, Ms. Harris, 
because I get them so infrequently in Congress. Is OMB's 
current guidance a good practice from a cybersecurity 
standpoint?
    Ms. Harris. Well, I mean, I think that from a cybersecurity 
standpoint, there are other vehicles in place that may be able 
to address the cybersecurity risk exposure on the data centers.
    So, I think the larger concern that we have in terms of 
dropping the non-tier data centers is our ability to have 
transparency and be able to track these centers and be able to 
stay aggressive in consolidation efforts, because there is 
still money that we are leaving on the table here.
    So, from that perspective and also an optimization 
perspective, too, ensuring that these centers are fully 
optimized. We are not able to get that if we don't have a 
better idea of what is in the inventory.
    Ms. Porter. And following this subcommittee's FITARA 10.0 
hearing, OMB submitted responses to the chairman's questions 
for the record on this data center guidance, and in its 
response to the question about this change in the data center 
definition, OMB stated that they, quote, ``removed requirements 
and reporting to align with industry standards, while also 
reducing the reporting burden that was time consuming and 
expensive.''
    OMB also said to focus on data centers deemed to be key 
mission facilities.
    Ms. Harris, in GAO's work, have you seen non-tier data 
centers that are key mission facilities?
    Ms. Harris. Well, we certainly want to--I think that there 
is a middle ground here. I think the pendulum has swung a 
little too far in terms of what we have omitted in the data 
center inventory--or the data center definition.
    But we don't necessarily want or need to track individual 
desktops. I think that from a reporting perspective, that is 
burdensome to the agencies. But we also----
    Ms. Porter. Reclaiming my time, Ms. Harris.
    I think you are exactly right. So, I want to point out some 
of what is being left out. Since OMB issued its guidance, the 
State Department data center reporting has dropped by more than 
half.
    And you are right, we don't need to track every laptop. 
But, for example, State Department no longer reports on two 
10,000-plus-square-foot facilities.
    The Social Security Administration, Mr. Brune, has seven 
facilities between 4,500 and 9,600 square feet that are no 
longer subject to these reporting requirements.
    You mentioned the value of transparency. Why is 
transparency so important when we are talking about these 
significantly sized facilities?
    Ms. Harris?
    Ms. Harris. I agree with you. I think that is--the examples 
that you just mentioned are reasons why we should be 
reevaluating the definition of what constitutes a data center 
because we do want to keep track of some of the non-tier data 
centers, particularly the fairly big ones that you just 
identified, and make sure that they are, you know, following 
the requirements of the DCOI initiative and are subject to 
the--you know, the reporting requirements associated with that 
initiative.
    Ms. Porter. Thank you very much, Ms. Harris.
    I think that is extremely helpful.
    Having heard what you have to say, Ms. Martorana, will you 
commit to working with this subcommittee to ensure proper 
oversight and transparency into these significantly sized, 
mission-critical, non-tiered data centers?
    Ms. Martorana. Thank you very much for that and I will 
make--give you another easy answer. Yes, I will commit to 
continuing to have that conversation and working----
    Ms. Porter. This my lucky day. I rarely get two yes and 
no's in the same hearing. I feel very, very blessed to be 
participating in this today.
    I think it is really important that the American public 
understand that the lack of transparency makes it impossible to 
fully protect taxpayer money and ensure that agencies are 
tracking all potential security vulnerabilities.
    So, I really appreciate OMB stepping up here and committing 
to doing what they can to not leave money on the table, to not 
leave us exposed to cyber attacks, because agencies simply find 
it difficult sometimes to follow best practices and the law.
    Thank you very much, and with that, Mr. Chair, I yield 
back.
    Mr. Connolly. Ms. Porter, thank you for your questioning, 
and let me just say you are a person after my own heart. Before 
you joined us, this was the subject I focused on and made it 
very clear that this subcommittee is going to insist on the 
letter of the law being complied with.
    And I would say to Ms. Harris while we are not 
unsympathetic with the need for some latitude in exercising 
judgment, the idea of it is a burden to an agency to comply 
with the law you will find us most unsympathetic to that and we 
would expect your agency to be similarly unsympathetic to that.
    When we pass a law, we expect it to be complied with. The 
time to argue is while we are debating that draft legislation, 
not after it becomes law.
    And Ms. Porter is absolutely right. Transparency is 
affected. Compliance with the law is affected. And I can just 
tell you, the fact that we have had 12 hearings on this subject 
all about compliance with the law--no other committee in 
Congress that I am aware of has ever done that--I hope 
demonstrates our determination to insist that this happen.
    We see ourselves as your partner, but we are going to 
insist that the various components of FITARA that Mr. Issa and 
I wrote be complied with, and we are prepared to pass more 
legislation on a bipartisan basis, if necessary.
    So, Ms. Porter's points are very well taken. There is a 
difference between some latitude and a desire to circumvent the 
law. Those are two different things. And we are--I said at the 
outset of this hearing we are concerned about that word, 
optimization, because it is a euphemism, we fear, for 
circumventing the requirement of the law, and that we are not 
going to go along with it. And that is not a new message from 
this subcommittee on a bipartisan basis.
    So, Ms. Porter, thank you. You have made the point and very 
well, and we really appreciate the commitment coming out of OMB 
as we move forward.
    Mr. Issa, you are recognized. Welcome back.
    Mr. Issa. Thank you, Mr. Chairman. And as you said, this is 
an area where you and I had the opportunity to work together 
for multiple years.
    And if I can pick up where you just left off, Chairman, 
where Ms. Porter just left off, the intent--what you worked in 
a bulldog type way for years on was to reduce the total number 
of distinct facilities that had to be managed, many of them 
having the basic problem of telling us they weren't large 
enough to be managed properly.
    But in a cloud world, there is only one server farm because 
every farm is connected. If there is only one server farm, 
that--as Ms. Porter said, that 4,500-square-foot facility that 
is not reporting could, in fact, be the weak link within a 
single cloud that has dozens or hundreds of locations.
    But at the end of the day, the bad guys only have to make a 
cyber penetration in one place. So, the very existence of those 
small facilities and then a claim that they cannot have the 
same level of transparency and perhaps not the same level of 
professionalism begs the question, why do they exist at all?
    And I want to commend the committee for continuing to work 
on that and for holding this hearing today.
    Ms. Harris, I have got a longer reaching one, a question 
you were not probably prepared for. But as Congressman Connolly 
and myself envisioned modernization under FITARA, we created 
the very positions or at least gave them real strength of these 
CIOs.
    They were created and given power and a direct link to, 
essentially, their cabinet head or agency head because of a 
history of not having the kind of professionalism overseeing 
$100 billion-plus in expenditures and, ultimately, the $4 or $5 
trillion of government spending that depend on it, and then at 
the end of the day, $22 or $23 trillion of the American economy 
that, as we know, can shut down if portions of the government 
become inoperative.
    Therefore, the question I have for you as our agency is, 
isn't it time for us to consider looking at stringing together 
this network of CIOs and, particularly, as to cyber into a 
single point of accountability, similarly to the Office of 
Personnel Management, the Office of Management and Budget, or 
any other cabinet head?
    Isn't it time that the government accountability and the 
government ops, which is our committee, Mr. Connolly's 
committee now, isn't it time that we look at a reorganization 
that takes that $100 billion plus dollars and creates at least 
one person accountable directly to the president who has the 
expertise to--and the vision to bring together these disparate 
entities that are spread across the government?
    Ms. Harris. Yes, I think that is a--that is what is needed, 
because when you look across the agencies with, you know, the 
proliferation of CIOs, it dilutes accountability.
    And so having a single point of accountability is 
absolutely a great idea and I think would go a long way in 
improving IT management.
    Mr. Issa. Well, I am going to give each of the CIOs an 
opportunity to weigh in on some of their frustrations. But I 
would ask the chairman to consider tasking the Government 
Accountability Office with some further study on that to help 
the committee.
    But if any of the CIOs want to weigh in on some of the 
frustrations they see by not having a higher level of person 
who has the kind of expertise that each of you has.
    And maybe we start off with the Office of Management and 
Budget.
    Ms. Martorana. It is an interesting question to ponder. I 
have not really given this an enormous amount of thought prior 
to the question. But I think that we are making an enormous 
amount of progress working across the Federal CIO community in 
an incredibly collaborative way.
    We are working on several projects together that are 
enterprise in mindset so that we are not learning, you know, 
each one starting from a blank piece of paper.
    You know, this is--we think, as Federal CIOs, of 
cybersecurity and IT modernization is a team sport. This is not 
an endeavor that any of us takes on in a silo, thinking only of 
our own agency. We think about our fellow colleagues.
    I know when I was a--an agency CIO, I was greatly benefited 
during the beginning of COVID by other CIOs who had gone on a 
journey well in advance of where my technology part--my 
technology team and infrastructure was.
    So, I think this is a team sport. We are all working very 
collaboratively as CIOs. But I would look forward to continuing 
to work together on this----
    Mr. Connolly. Brief--thank you. Briefly, because the 
gentleman's time has expired, I want to give Mr. Bluestein and 
Mr. Brune an opportunity to respond briefly.
    Mr. Bluestein. Sir, I appreciate the opportunity to respond 
to that. I echo Ms. Martorana's commentary. First of all, the 
environment amongst the CIO Council--the government CIOs has 
been very collaborative and there are certain things we are 
trying to break down some of these barriers.
    I think that that goes right to Congressman Issa's point 
about collaboration in cybersecurity, having--whether it is 
some cyber entity that oversees all that but can kind of break 
through some of those barriers.
    FITARA has been realized in my agency. So, I don't want for 
those kinds of things, if you will, in my organization. But as 
we collaborate with other agencies, it would be nice in some 
cases if we could break down those silos while making sure that 
we are secure.
    Mr. Connolly. Mr. Brune, did you want to comment?
    Mr. Brune. Thank you, Chairman, and thank you, Congressman, 
for the question.
    I would say that the enterprise focus is growing. Recently, 
the Social Security Administration joined partnership with the 
General Service Administration and other agencies on 
registration authentication for secure online accounts.
    The GSA administers a program, login.gov. We use that. So, 
it is done on behalf of the public and we can use--build it 
once, use it multiple times. That is just one example where the 
collaboration that the Federal CIO mentioned is occurring, and 
I see it growing.
    Mr. Issa. Thank you, Mr. Chairman. This has been a great, 
great pleasure, and I appreciate your indulgence for the extra 
minutes.
    Mr. Connolly. Thank you so much, Mr. Issa.
    And I would just editorialize as a final thought, and it 
goes back to a comment you made, Mr. Bluestein, about, you 
know, the org chart and solid line versus dotted line and all 
that.
    But Mr. Issa will remember that when we wrote FITARA, among 
24 Federal agencies there were 250 people with the title of 
CIO.
    Now, there is no private entity that would tolerate that. 
And even in writing the bill, we chose not to do it by fiat. We 
chose to hope that there would be an evolution, that somebody 
would emerge as the primus inter pares.
    And the reason we have emphasized the solid line is because 
of this proliferation. Someone has got to be in charge. Someone 
has got to be designated as the responsible and accountable 
person who is empowered to make decisions.
    And in bureaucracies if you do not report to the boss, 
especially public sector bureaucracies, everybody knows 
anything you have to say is ad referendum. I am using some 
Latin today. I am sorry. And that is what we are trying to get 
at, and if there is a better way to do it we would love to hear 
it.
    But I think both Mr. Issa and I reflect on a private sector 
experience and look at the Federal Government and say this is a 
system that can't possibly work with that many people with that 
title.
    So, that is--that is what we are trying to get at. I think 
you would concur, Mr. Issa. Yes. Thank you very much.
    Mr. LaTurner, thank you for your patience. You are 
recognized.
    Mr. LaTurner. Thank you, Mr. Chairman.
    Ms. Martorana, I would like to visit with you just a little 
bit about the Technology Modernization Fund. As you know, it 
was established by Congress in 2017 to provide agencies 
additional ways to fund IT projects in a timely manner.
    Has the fund adequately lived up to its purpose?
    Ms. Martorana. Thank you, Congressman, for that question.
    I am so bullish on the Technology Modernization Fund, not 
only in the way that it has managed IT projects that it did 
during its kind of 1.0 phase. Now that we are in a 2.0 phase 
with the $1 billion in the American Rescue Plan funding. I 
have--I see just enormous possibility.
    So, a couple things that really stand out to me is, one is 
the board of TMF are all government officials that are real 
subject matter experts. They take their responsibility as board 
members very seriously.
    We are spending about 10 hours a week meeting and reviewing 
proposals currently. We have brought subject matter experts in 
where we feel that we might have an opportunity, as I mentioned 
earlier, to have a little more of a top-down view across the 
portfolio. So, that is making me incredibly optimistic about 
this opportunity.
    The second is, the repayment flexibility that has been 
extended to agencies under the American Rescue Plan is having a 
meaningful impact on agencies' ability to participate in this, 
right.
    Not all agencies have working capital funds. We know that 
that is continuing to evolve. But it was really a barrier of 
entry for people being able to participate in TMF. With the 
repayment flexibility loosened a bit, that has made all the 
difference in the world, and we know that this will continue to 
have an impact.
    The third reason that I am really optimistic about TMF is 
we are using best practices in how we are reviewing projects, 
awarding proposals to move forward, and managing them.
    There is quarterly meetings with the TMF board to review 
progress. We only give out funds on an incremental basis based 
on accomplishments, milestones being met.
    And we are also taking corrective actions when we see that 
a project is not fulfilling where milestones or where we think 
it should be.
    We are bringing in subject matter experts, again, to 
partner with those agencies on corrective actions and we are 
willing to stop funding should we not believe that an agency is 
going to be successful.
    So, we believe that TMF is going to have improved outcomes 
in the IT projects that we are funding and we hope to be able 
to continue to demonstrate that to the committee and to 
Congress.
    Mr. LaTurner. I appreciate that. I have some additional 
questions on that but I am going to run out of time. 
Specifically, that my understanding is that there is $10 
billion of the $60 billion for Fiscal Year 1922 in the request 
that has been earmarked for cybersecurity.
    Could you drill down into that a little bit in the time 
that we have left and talk about how those funds will be 
allocated and spent to strengthen our cybersecurity?
    Ms. Martorana. Yes. Out of--I can speak specifically to the 
TMF proposals that had a primary, secondary, or tertiary 
cybersecurity component.
    We asked agencies to self-identify when they were 
submitting a proposal. Forty-two percent of the proposals are 
modernizing high-priority systems, and that is--those are 
oftentimes mission-critical systems that are operating our 
Federal Government.
    So, 42 percent are focused on upgrading, updating, and 
increasing the cybersecurity posture of high-value systems.
    The next are squarely cybersecurity requests, agencies that 
are coming to us and saying that they would like to begin on 
the road to more modern security practices like zero trust, 
which is a framework for not trusting anything inside your 
environment and making sure that you are rigorously 
interrogating everything within your boundaries.
    It is actually eliminating boundaries. I won't get too 
technical. But we are focused on that, and so about 75 percent 
of all requests into TMF through the American Rescue Plan are 
focused on cybersecurity.
    Mr. LaTurner. I appreciate that. It is such an important 
subject that I would love to spend more time on. But my time 
has expired.
    Thank you, Mr. Chairman. I yield back.
    Mr. Connolly. Mr. LaTurner, thank you, and let me invite 
you, if you do have followup questions please get them to my 
staff and we will forward them to the appropriate witness.
    Mr. LaTurner. Thank you, Mr. Chairman.
    Mr. Connolly. There is that opportunity, if we can do it 
within five days, and we ask our witnesses to be as expeditious 
as possible but as thorough as possible in responding to 
written questions, because, obviously, we can't ask everything 
in the hearing. So happy to do that, Mr. LaTurner. Thank you.
    And if I can close out this hearing with some questions of 
my own, but I want to--Mr. Bluestein, I want to focus on you 
for a minute because I think you joined the agency in June, but 
the avalanche for SBA occurred in April and May.
    So, we signed the CARES Act, big bipartisan bill. A lot of 
money for it. It was starting a new program, the PPP, and what 
we did that, I think, put a burden on SBA, and you rightfully 
pointed out the magnitude of scale.
    So, I think your annual loan portfolio is something like 
$20 billion a year. We gave you $600 billion in one month. We 
also lessened the requirements for eligibility. We really 
streamlined them. We reduced paperwork.
    We reduced documentation requirements because we were 
panicked, right. We wanted to get help to Main Street mom-and-
pops as quickly as possible so they didn't go under. A noble 
goal.
    And we also had a--that program had a provision that 
allowed loans to be converted to grants fairly easily.
    Now, in doing all that with great intentions, we were 
relying, in a sense, on the SBA IT system e-TRAN.
    And what happened in the first few weeks--oh, we added--I 
am sorry. One other change, which was a big one, we broadened 
the financial institutions eligible to manage the portfolios. 
We wanted to get into communities, including communities we 
were targeting--low income, communities of color--and that 
meant we had to look at community-based financial institutions, 
not the normal financial institutions that normally are the go-
to managers of SBA's portfolio.
    And what we found was that your IT system could not handle 
that. It couldn't--it had trouble programming the changes. It 
had trouble managing a huge avalanche of new money in a new 
program and it was overwhelmed by the demand.
    And I am not citing that to criticize SBA. I cite it as an 
example of why IT is so important, because no one could have 
foreseen these circumstances. But our whole mission up here was 
shared by your agency, which was rush aid--run, don't walk to 
get aid to these small businesses so we are saving them and 
they are not going under, and while at the same time, we will 
have a condition keep people on the payroll. That is the goal 
here. We want to keep you open and we want to keep those people 
on payroll so we are not adding to the massive unemployment, 
which we were experiencing in April 2020.
    But if you don't invest in the IT system to have the 
agility and the flexibility for these kinds of changes, how can 
you be surprised that it is overwhelmed and your mission is 
defeated? Not by some nefarious, you know, person or persons 
wanting to muck up the works, but because the IT system can't 
do it.
    How often do we have to be reminded how critical and 
integral the IT system is to the mission? And we see that in 
unemployment insurance systems across the country, in the 50 
state unemployment insurance systems.
    We see it at the IRS in getting payments. We are changing 
the IRS mission, in a sense, or broadening it, from a tax 
collector to, you know, a benefit agency, and we are a little 
surprised that it has some trouble and its IT systems are older 
and more multiplicitous than yours.
    I just want to give you a chance to kind of--because you 
came in June after all that happened and you were kind of in 
the cleanup operation. But I am sure you have some reflections 
about the good, the bad, and the ugly and what we have learned 
from that kind of experience.
    And then I will be done.
    Mr. Bluestein. Thank you for the opportunity to comment on 
that, sir.
    I did come in after the fact. One of the first things we 
did was we took a look at the entire ecosystem, because they 
were different systems that handled the PPP loans and the EIDL 
loans, and they were--while they were somewhat disconnected, 
they still ran through the same system of systems that managed 
the capital access process.
    So, one of the first things we did is say let us take a 
look at this end to end. How do you streamline all of this so 
it operates on some kind of plane, and let me diverge for just 
a second.
    When all of this happened last year and there was a 
Presidential tweet that said sba.gov, our website that normally 
handled about 600 to 700 concurrent users went to 93,000 in a 
matter of minutes.
    Now, that was all set on a modern platform that immediately 
scaled to handle from about one terabyte a day of data to about 
25 terabytes a day. So, it was built to scale.
    And we want to bring that same technology into these 
financial systems. Unfortunately, a lot of times in risk 
management until we actually realize the risk--people talk 
about it, but they won't take necessarily the measures to fix 
that.
    Now we have been in a situation where we saw the 
consequence, and especially with all the different things that 
have happened subsequent to that--different requirements, how 
do we slice and dice some of these things to discreetly 
identify either communities of interest, other things that we 
want to do in the system--that technology is available out 
there.
    We are going through the process now of figuring out, OK, 
what do we do with the system that we have? We have e-TRAN, 
which has been there. It is legacy code. We know it.
    And the next step is, OK, how do we move beyond that. We 
are working very, very closely with the capital access folks to 
work through that.
    Mr. Connolly. Thank you so much, and I look forward to 
having further discussion with you about what happened and what 
we can take away, sir, because I think all of us benefit from 
that experience in terms of--and I would commend to you, Ms. 
Martorana, on your agenda many things to get done.
    But I really would look at lessons learned from the 
pandemic in terms of IT because I think we could really, all of 
us, benefit from that. There were some great things. There were 
some things that didn't work, some things that were disasters, 
and some things we could have done better.
    The TMF is in that context, I think, as you were saying 
earlier in terms of how we might use it to help upgrade, to 
help people make other investments, better investments. But I 
do think there are some very critical lessons to be learned 
from this experience, and you might very well want to take the 
lead on that.
    And I think Mr. Issa suggested, Ms. Harris, that I might 
want to join him in urging you to look at a couple of issues, 
and Mr. Hice also, and I gladly nod yes to add to your plate.
    Mr. Hice, anything for the good of the order you want to 
add?
    Mr. Hice. I don't. I am----
    Mr. Connolly. Yes, no problem. You are going to mischief.
    [Laughter.]
    Mr. Connolly. All right.
    I want to thank our witnesses, and again, any member 
wishing to add--to submit written questions for the record, we 
will be glad to provide them to our witnesses.
    I think this has been a thoughtful dialog. Really 
appreciate the work of everybody involved. I think you can see 
our commitment. I know it is not the sexiest topic in the 
world.
    But to me, IT undergirds everything we are trying to do in 
the mission, and the mission is jeopardized if the IT doesn't 
work. And we have the added layer of being really concerned 
about cyber and how do we protect ourselves.
    And as Ms. Martorana, I think, astutely observed, the two 
are linked. If you have got an old clunky antique legacy system 
that cannot be encrypted or cannot easily be encrypted, you are 
asking for trouble, and that is why making smart investments 
that are cyber protected and that also take advantage of the 
most advanced technology better serve our constituents and 
protect their privacy and their interests and the national 
security, while we are at it.
    With that, this hearing is adjourned.
    [Whereupon, at 3:52 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
